No. 19-687
IN THE

LEAGUE OF UNITED LATIN AMERICAN CITIZENS, ET AL.,
Petitioners,
v.
EDWARDS AQUIFER AUTHORITY, ET AL.,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
BRIEF IN OPPOSITION

Deborah C. Trejo
Counsel of Record
Mark N. Osborn
Ken Slavin
KEMP SMITH LLP
919 Congress Ave.
Suite 1305
Austin, TX 78701
(512) 320-5466
dtrejo@kempsmith.com
Attorneys for Respondents
(additional counsel listed on inside cover)

William M. McKamie
TAYLOR OLSON ADKINS SRALLA & ELAM LLP
13750 San Pedro Ave.
Suite 555
San Antonio, TX 78232
Attorney for Respondents
City of Uvalde and Uvalde County
Aaron M. Streett
BAKER BOTTS, LLP
One Shell Plaza
910 Louisiana St.
Houston, TX 77002
Attorney for Respondent
Guadalupe-Blanco River Authority
Mark J. Cannan
CAVARETTA, KATONA & LEIGHNER, PLLC
One Riverwalk Place
700 N. St. Mary’s St.
Suite 1500
San Antonio, TX 78205
Attorney for Respondent New Braunfels Utilities

QUESTION PRESENTED
In Salyer Land Co. v. Tulare Lake Basin Water
Storage District, 410 U.S. 719 (1973), and Ball v.
James, 451 U.S. 355 (1981), this Court held that the
Equal Protection Clause’s guarantee of one-person,
one-vote does not apply to elections for members of a
“special-purpose” body that does not exercise general
governmental authority. Instead, rational basis review applies to bodies with differently weighted voting
districts. The question presented is:
Whether the Edwards Aquifer Authority, which is
narrowly focused on conserving the water in the Edwards Aquifer in south Texas, is a special-purpose district subject to the Salyer/Ball exception.

ii
RULE 29.6 STATEMENT
Respondents are various governmental entities.
No respondent is owned by a parent corporation or is
publicly traded.
RELATED PROCEEDINGS
United States District Court (W.D. Tex.):
LULAC v. Edwards Aquifer Auth., No. 12-CA-620
(June 18, 2019) (order on summary judgment)
United States Court of Appeals (5th Cir.):
LULAC v. Edwards Aquifer Auth., No. 18-50655
(Aug. 28, 2019)

iii
TABLE OF CONTENTS
QUESTION PRESENTED ........................................... i
RULE 29.6 STATEMENT ........................................... ii
RELATED PROCEEDINGS........................................ ii
TABLE OF AUTHORITIES ....................................... iv
STATEMENT OF THE CASE..................................... 1
THE PETITION SHOULD BE DENIED ................. 12
I.

The Decision Below Does Not Conflict
With Any Decision Of Any Other Court
Of Appeals ........................................................ 12

II. The Decision Below Does Not Warrant
Review .............................................................. 19
CONCLUSION .......................................................... 24

iv
TABLE OF AUTHORITIES
Cases
Associated Enters., Inc. v. Toltec Watershed
Improvement Dist.,
410 U.S. 743 (1973) ................................................ 21
Avery v. Midland County,
390 U.S. 474 (1968) ............................................ 1, 22
Baker v. Reg’l High Sch. Dist. No. 5,
520 F.2d 799 (2d Cir. 1975) ................................... 14
Ball v. James,
451 U.S. 355 (1981) ........................................ passim
Barshop v. Medina Cty. Underground Water
Conservation Dist.,
925 S.W.2d 618 (Tex. 1996) ..................................... 4
Bd. of Estimate of N.Y.C. v. Morris,
489 U.S. 688 (1989) ................................................ 22
City of White Settlement v. Super Wash, Inc.,
198 S.W.3d 770 (Tex. 2006) ................................... 24
Educ./Instruccion, Inc. v. Moore,
503 F.2d 1187 (2d Cir. 1974) ............................. 9, 13
Edwards Aquifer Auth. v. Chem. Lime, Ltd.,
291 S.W.3d 392 (Tex. 2009) ..................................... 4
Gray v. Sanders,
372 U.S. 368 (1963) ................................................ 22
Hadley v. Junior Coll. Dist.
of Metro. Kan. City,
397 U.S. 50 (1970) .............................................. 1, 22
Hellebust v. Brownback,
42 F.3d 1331 (10th Cir. 1994) ................................ 16

v
Larios v. Cox,
300 F. Supp. 2d 1320 (N.D. Ga. 2004) ................... 17
Pittman v. Chi. Bd. of Educ.,
64 F.3d 1098 (7th Cir. 1995) ........................ 9, 18, 19
Raleigh Wake Citizens Ass’n v.
Wake Cty. Bd. of Elections,
827 F.3d 333 (4th Cir. 2016) .................................. 17
Reynolds v. Sims,
377 U.S. 533 (1964) .................................... 1, 2, 3, 24
Salyer Land Co. v. Tulare Lake
Basin Water Storage District,
410 U.S. 719 (1973) ........................................ passim
Tex. Bay Cherry Hill, L.P. v.
City of Fort Worth,
257 S.W.3d 379 (Tex. App. 2008) ........................... 24
Vander Linden v. Hodges,
193 F.3d 268 (4th Cir. 1999) ............................ 14, 15
Wesberry v. Sanders,
376 U.S. 1 (1964) ...................................................... 1
Statutes
Act of May 30, 1993, 73d Leg., R.S., ch. 626,
1993 Tex. Gen. Laws 2350 ....................................... 5
Tex. Water Code Ann. § 5.013(a) ................................ 6
Tex. Water Code Ann. § 26.011 ................................... 6
Regulations
30 Tex. Admin. Code ch. 213 (2018) ............................ 6
Rules
Sup. Ct. R. 10 ............................................................. 19

STATEMENT OF THE CASE
1. This case involves the application of the Equal
Protection Clause’s one-person, one-vote guarantee to
a local special-purpose district. As a general rule, legislative districts must “be apportioned on a population
basis,” such that each district comprises substantially
the same number of residents. Reynolds v. Sims, 377
U.S. 533, 568 (1964); see Wesberry v. Sanders, 376 U.S.
1, 8-9 (1964). This Court has applied that requirement
to certain local governmental “units with general governmental powers over an entire geographic area.”
Avery v. Midland County, 390 U.S. 474, 485-486 (1968)
(Midland County Commissioners Court); see Hadley v.
Junior Coll. Dist. of Metro. Kan. City, 397 U.S. 50, 5354 (1970) (junior college trustees). In so doing, however, the Court has noted that the one-person, one-vote
requirement may not apply to “a special-purpose unit
of government assigned the performance of functions
affecting definable groups of constituents more than
other constituents.” Avery, 390 U.S. at 483-484; see
Hadley, 397 U.S. at 56.
The Court confronted such a special-purpose district in Salyer Land Co. v. Tulare Lake Basin Water
Storage District, 410 U.S. 719 (1973), and again in Ball
v. James, 451 U.S. 355 (1981).
In Salyer, the Court considered the Tulare Lake
Basin Water Storage District, the primary purpose of
which was to “provide for the acquisition, storage, and
distribution of water for farming in the Tulare Lake
Basin” in California. 410 U.S. at 728. The district had
authority to “fix tolls and charges for the use of water
and collect them from all persons receiving the benefit
of the water and other services in proportion to the services rendered.” Id. at 724. And “[t]he costs of the

2
projects [we]re assessed against district land in accordance with the benefits accruing to each tract held
in separate ownership.” Ibid. Otherwise, the district
“ha[d] relatively limited authority” and “provide[d] no
other general public services such as schools, housing,
transportation, utilities, roads, or anything else of the
type ordinarily financed by a municipal body.” Id. at
728-729. The water district was governed by an
elected board of directors. Id. at 724. Only landowners
in the district were permitted to vote for the directors,
and votes were “apportioned according to the assessed
valuation of the land.” Id. at 725.
The Court rejected an equal protection challenge
by residents of the district who did not own land and
therefore could not vote. The Court held that the “water storage district, by reason of its special limited purpose and of the disproportionate effect of its activities
on landowners as a group” was not bound by the oneperson, one-vote rule established in Reynolds. Salyer,
410 U.S. at 728. Explaining that “there is no way that
the economic burdens of district operations can fall on
residents qua residents” and that “the operations of
the district[] primarily affect the land within [its]
boundaries,” id. at 729, the Court upheld the voting
system under rational basis review, id. at 731-734.
Eight years later, the Court reached a similar conclusion in Ball, holding that the one-person, one-vote
requirement did not apply to the Salt River Project Agricultural Improvement and Power District, which
limited the franchise to landowners and apportioned
votes according to the amount of land a voter owned.
451 U.S. at 357. The district at issue supplied electric
power to hundreds of thousands of people in Arizona,
but its primary purposes were storage, delivery, and

3
conservation of water. Ibid. The district had authority
“to raise money through an acreage-proportionate taxing power,” to issue bonds, and to condemn land. Id.
at 359-360. Residents of the district who owned little
or no land challenged the franchise restriction, arguing in part that the district’s actions had “a substantial
effect on all people who live” in the district because the
district sold “electricity to virtually half the population
of Arizona” and “exercise[d] significant influence on
flood control and environmental management within
its boundaries.” Id. at 360.
This Court rejected the challenge, holding that the
one-person, one-vote requirement did not apply to the
district. 451 U.S. at 363-372. The Court acknowledged that the district at issue in Ball had greater authority and influence than the district at issue in
Salyer. Id. at 365-366. But the Court held that those
differences did “not amount to a constitutional difference” because the Salt River District did “not exercise
the sort of governmental powers that invoke the strict
demands of Reynolds.” Id. at 366. The Court explained that the district could not “impose ad valorem
property taxes or sales taxes,” could not “enact any
laws governing the conduct of citizens,” and did not
“administer such normal functions of government as
the maintenance of streets, the operation of schools, or
sanitation, health, or welfare services.” Ibid. The
Court acknowledged that “as much as 40% of the water
delivered by the District goes for nonagricultural purposes,” but explained that “the distinction between agricultural and urban land is of no special constitutional significance in this context.” Id. at 367. The
Court explained that water districts such as the Salt
River District “remain essentially business enter-

4
prises, created by and chiefly benefitting a specific
group of landowners.” Id. at 368. Emphasizing that
“the voting scheme for a public entity like a water district may constitutionally reflect the narrow primary
purpose for which the district is created,” id. at 369,
the Court held that “[t]he functions of the Salt River
District are therefore of the narrow, special sort which
justifies a departure from the popular-election requirement of the Reynolds case,” id. at 370. The Court thus
upheld the statutory voting scheme under rational basis review. Id. at 371.
2. a. This case involves another challenge to a
water district. The Edwards Aquifer Authority (EAA)
is a special-purpose conservation and reclamation district that was “established to regulate the groundwater of the Edwards Aquifer for the benefit of dependent
users and species.” Pet. App. 2a. “The Edwards Aquifer ‘is a unique underground system of water-bearing’”
geologic formations located in south-central Texas.
Ibid. (quoting Barshop v. Medina Cty. Underground
Water Conservation Dist., 925 S.W.2d 618, 623 (Tex.
1996)). Water enters the Aquifer through the ground
as surface water and rainfall; it leaves through well
withdrawals and spring discharges. Ibid. The Aquifer
is “the primary source of water for south central
Texas.” Ibid. (quoting Edwards Aquifer Auth. v.
Chem. Lime, Ltd., 291 S.W.3d 392, 394 (Tex. 2009)).
Flow from Aquifer springs are vital for the survival of certain threatened or endangered species. Pet.
App. 49a. In the 1980s, over-drafting of the Aquifer
put those species at risk. Id. at 3a, 49a-50a. In 1993,
in response to a federal court order requiring that
measures be taken to protect those species, the Texas
Legislature enacted the Edwards Aquifer Authority

5
Act (Act), which created the EAA. Ibid.; see id. at 72a215a; Act of May 30, 1993, 73d Leg., R.S., ch. 626, 1993
Tex. Gen. Laws 2350. The Act grants limited powers
to the EAA, authorizing it to protect the quantity and
quality of water in the Edwards Aquifer within its
boundaries for the benefit of dependent users and species. Pet. App. 4a, 50a, 79a, 87a-107a. The statute expressly grants to the EAA “all of the powers, rights,
and privileges necessary to manage, conserve, preserve, and protect the aquifer and to increase the recharge of, and prevent the waste or pollution of water
in, the aquifer.” Id. at 3a-4a (quoting Act § 1.08(a)).
The EAA has authority to adopt, implement, and enforce rules to exercise its limited authority. Id. at 53a.
It can also, inter alia, hire employees; enter contracts;
finance, construct, and operate dams and reservoirs;
exercise the power of eminent domain; and issue
grants or loans for water conservation and reuse. Id.
at 4a. The EAA has no authority to impose ad valorem
property taxes or sales taxes; nor does it provide general public services like schools; housing; public sanitation, health, or welfare services; construction or
maintenance of roads; public utilities; or transportation. Id. at 6a, 54a.
The EAA’s central function is to regulate the withdrawal of water from the Aquifer. To that end, the Act
prohibits the withdrawal of water without a permit issued by the EAA. Pet. App. 4a; see id. at 144a, 154a155a, 189a. Fewer than 2,000 individuals and entities
have withdrawal permits. Id. at 4a. Whether a person
is entitled to a permit is governed by the Act, which
provides that preference is given to users who can establish that they withdrew and beneficially used water
from the Aquifer on or before June 1, 1993. Ibid. The

6
Act establishes an annual cap on the aggregate
amount of withdrawals allowed by permit and allows
the EAA to issue additional permits if existing users’
needs are met before the aggregate withdrawals exceed the cap. Ibid. Permit holders are required to meter their water use, avoid waste, and implement conservation measures approved by the EAA. Id. at 5a.
Permit holders must adhere to the terms and conditions of their permits and may not use water from the
Aquifer outside the boundaries of the EAA. Ibid.
“[I]ncidental to its primary task of administering
the permit process” “to preserve the quantity of aquifer
water,” the EAA also assists the Texas Commission on
Environmental Quality (TCEQ) in protecting the Aquifer from pollutants. Pet. App. 18a-19a. To that end,
the EAA regulates the construction, operation, and
maintenance of wells that draw from or are drilled
through the Aquifer. Id. at 5a. Within certain regions—known as the “recharge zone” and the “contributing zone”—that are particularly susceptible to introducing pollutants to the Aquifer, the EAA requires reporting of noxious spills and regulates facilities housing toxic substances for commercial use. Ibid. At all
times, however, the TCEQ has primary jurisdiction
over the prevention of pollution to all groundwater in
the State. Tex. Water Code Ann. §§ 5.013(a), 26.011;
Pet. App. 18a-20a; see also 30 Tex. Admin. Code ch.
213 (2018) (TCEQ rules on the Edwards Aquifer).
b. In 1995, with approval from the Department
of Justice pursuant to Section 5 of the Voting Rights
Act of 1965, the Texas Legislature adopted the election
scheme at issue here. Pet. App. 7a. The EAA’s jurisdiction spans all or part of eight counties, representing
three distinct regions: (1) the western agricultural

7
counties of Atascosa, Medina, and Uvalde, with an aggregate population of 117,000; (2) the eastern springflow counties of Caldwell, Comal, Guadalupe, and
Hays, with an aggregate population of 435,000; and
(3) the urban county of Bexar, with a population exceeding 1.7 million, id. at 6a, and which includes the
City of San Antonio. Voters from those districts elect
fifteen members of the EAA’s board of directors; two
additional nonvoting members are appointed. Id. at
7a. The fifteen voting directors are elected from singlemember districts throughout the EAA’s jurisdiction.
Id. at 57a. Four of the single-member districts are located in the western (agricultural) counties (one in Medina, two in Uvalde, and one in Medina and Atascosa
combined); another four are located in the eastern
(spring-flow) counties (one in Comal, one in Comal and
Guadalupe combined, one in Hays, and one in Hays
and Caldwell combined); the remaining seven are in
Bexar County. Id. at 7a, 57a. All citizen residents of
legal voting age are permitted to vote in the elections.
Id. at 59a.
3. In 2012, petitioners filed this action against
respondent EAA and various parties intervened, as
plaintiff and as defendants. Pet. App. 33a-34a. Petitioners allege that the EAA’s electoral districts violate
the Equal Protection Clause’s guarantee of one-person,
one-vote because voters in the less populous eastern
and western counties elect more directors per capita
than the voters in Bexar County. Id. at 7a, 34a.1
1

Petitioners also alleged that the electoral scheme violates
Section 2 of the Voting Rights Act of 1965, because it dilutes the
voting strength of minority voters. Pet. App. 34a. Petitioners
agreed to stay—and later dismissed—that claim, and it is not at
issue here. Ibid.

8
a. The district court granted summary judgment
to the EAA. Pet. App. 31a-64a. After reviewing the
powers invested by state law in the EAA, the court concluded that “the EAA’s power and authority is limited
to carrying out its narrowly defined statutory purpose
to manage, protect, preserve, and conserve the water
in the aquifer.” Id. at 52a. The court explained that,
“[l]ike the special purpose districts in Salyer and Ball,
the EAA has the power to adopt and implement rules
to exercise its authority, and the power to enforce
those rules.” Id. at 53a (internal citations omitted).
And the court noted that each action the EAA is authorized to take is tied to and limited by “its legislative
mandate to conserve water from the aquifer.” Id. at
55a; see id. at 55a-57a. Because “[t]he Texas Legislature established the EAA to fulfill the Act’s limited
purpose and scope, not a broader governmental purpose,” the court held, “[t]he EAA is clearly a special
purpose district that falls within the Salyer/Ball exception to the one person, one vote requirement.” Id.
at 57a.
The district court therefore reviewed the EAA’s
electoral scheme under a rational basis standard. The
court determined that the EAA’s apportionment
scheme “is carefully balanced to reflect the different
water interests in the subregions that are disproportionately impacted by the EAA.” Pet. App. 59a. The
court explained, for example, that “[t]wo-thirds of the
recharge occurs in the Western counties,” that “the average person in the agricultural counties uses approximately nine to eleven times as much water as the average person in Bexar County,” and that “[n]early all
of the pumping for agriculture takes place in Uvalde
and Medina counties.” Id. at 60a. The court noted that

9
the Texas Legislature took a “balanced approach,
which took urban, agricultural, and spring flow interests into account in terms of voting power on the
board.” Id. at 61a. Explaining that “apportionment by
population rather than apportionment by subregional
water interests” “would defeat the purpose of the EAA
and destroy the careful balance of interests upon
which it was formed,” the court held that “[t]he EAA
single member district apportionment plan is carefully
balanced to reflect the different water interests in the
subregions that are disproportionately impacted by
the EAA and thus meets the more relaxed rational basis review under Salyer/Ball.” Id. at 63a.
b.

The Fifth Circuit affirmed. Pet. App. 1a-30a.

Relying on this Court’s cases, the court of appeals
first rejected petitioners’ argument that the exception
to one-person, one-vote set out in Salyer and Ball is
limited to districts that restrict the franchise to, e.g.,
landowners. Pet. App. 12a-15a. Rather, the court held
that whether the Salyer/Ball exception applies depends on whether the governmental entity at issue is
a special-purpose unit or is instead “an entity of general governmental power.” Id. at 14a. The court explained that other courts of appeals have similarly
held that the Salyer/Ball exception applies to specialpurpose entities with an open franchise. Id. at 14a15a (citing Pittman v. Chi. Bd. of Educ., 64 F.3d 1098,
1101-1103 (7th Cir. 1995); Educ./Instruccion, Inc. v.
Moore, 503 F.2d 1187, 1188 (2d Cir. 1974) (per curiam)).
Turning next to the question of “whether the EAA
serves a ‘special limited purpose,’” Pet. App. 15a-16a
(quoting Salyer, 410 U.S. at 728), the court of appeals
examined the scope of and limitations on the EAA’s

10
authority, id. at 16a-19a. The court explained that the
EAA’s “powers are expressly tailored to protecting the
quantity and quality of groundwater in the Edwards
Aquifer and do not extend to any surface water or
other aquifers located within its jurisdiction”; that the
EAA “cannot levy ad valorem property or sales taxes
or oversee such public functions as schools, housing,
zoning, transportation, roads, or health and welfare
services”; and that even “the EAA’s discretion to grant
a permit is quite limited.” Id. at 16a.
The court of appeals went on to determine that
“[t]he EAA’s functions have a lopsided effect” on the
eastern and western counties that have greater voting
power. Pet. App. 22a. The court explained that “per
capita usage is significantly higher in those counties
than in urban Bexar County,” meaning “that residents
of the agricultural and spring-flow counties are more
dependent upon the aquifer and thus are disproportionately affected by the EAA’s regulation thereof.” Id.
at 22a-23a. The court also noted that landowners in
Texas enjoy a property interest in the groundwater under their land and that “property owners in the agricultural and spring-flow counties collectively possess
seventy-six percent of the land overlying the Edwards
Aquifer”; that “the EAA’s regulation of water quality
has little bearing on residents of Bexar County”; and
that “[a] disproportionate number” of the endangered
species at the heart of the EAA’s creation “reside in the
eastern counties.” Id. at 23a-24a.
Because the EAA’s “authority is circumscribed to
attain its narrowly defined purpose to conserve aquifer
water,” and because its “activities disproportionately
impact the western agricultural and eastern springflow counties, whose residents are most empowered by

11
its elections,” Pet. App. 22a, the court of appeals held
that the EAA “qualifies as a special-purpose district,”
id. at 26a. The court therefore applied rational basis
review to the electoral scheme, concluding that the
“scheme is rationally related to the legitimate goal of
protecting the aquifer because it equitably balances
the rival interests of the agricultural, spring-flow, and
urban counties to ensure that no one region can dominate the aquifer’s management.” Id. at 27a. Noting
that “the apportionment scheme was likely necessary
to ensure the creation of the EAA,” the court relied on
this Court’s decisions holding “that a special-purpose
district passes constitutional muster where its electoral scheme was reasonably necessary to the formation of the district.” Id. at 28a (citing Ball, 451 U.S.
at 371; Salyer, 410 at 731).
Judge Higginbotham filed a concurring opinion
emphasizing the importance of the EAA in “protecting
an extraordinary asset of the state—one that can be
depleted and lost to contamination and misallocation.”
Pet. App. 29a. He “emphasi[zed] that this governance
[of the EAA] comes with no disenfranchisement of voters—only a dilution of voter strength essential to the
very structure of the special purpose entity, a dilution
essential to its core purpose.” Ibid.
Petitioners did not seek rehearing.

12
THE PETITION SHOULD BE DENIED
Petitioners purport (Pet. i-ii) to present three distinct questions. But each question is a different version of the same question: whether the court of appeals erred in determining that the EAA is a specialpurpose district that is exempt from the one-person,
one-vote requirement under this Court’s decisions in
Salyer Land Co. v. Tulare Lake Basin Water Storage
Dist., 410 U.S. 719 (1973), and Ball v. James, 451 U.S.
355 (1981). Review of that fact-bound question is not
warranted because the Fifth Circuit correctly held that
it is, and its decision does not conflict with any decision
of this Court or of any other court of appeals.
I.

The Decision Below Does Not Conflict With
Any Decision Of Any Other Court Of
Appeals.

After initially asserting (Pet. 13-14) that the decision below “conflict[s] with” decisions of “other circuits[]” such that different courts have “reach[ed] opposite conclusions based on substantially similar
facts,” petitioners never follow up with an example of
an actual conflict. Instead, they contend that this
Court’s intervention is necessary to alleviate “tensions
between circuit rulings,” Pet. 14 (capitalization altered), and to “resolve dissonant decisions” among circuit courts, Pet. 15. That is not surprising because
there is no conflict among the circuits on when and
how the Salyer/Ball exception applies. Nor is there
any tension or dissonance. This Court’s review is manifestly unwarranted.
A. Petitioners first contend (Pet. 21-26) that the
decision below conflicts with decisions from the Second, Fourth, and Tenth Circuits.
Curiously,

13
petitioners argue that the conflict arises from the fact
that none of the districts at issue in those courts’ decisions involved the type of open-franchise election at issue here. Indeed, petitioners concede that “no other
case” has analyzed whether the Salyer/Ball exception
applies “to a local jurisdiction whose district representatives are chosen under such a straightforward and
conventional open-franchise popular election framework.” Pet. 32. It is thus difficult to understand how
there could be any conflict. And, in fact, there is no
conflict in the circuits about when and how to apply
the Salyer/Ball exception.
1. The Second Circuit has twice had occasion to
determine whether the Salyer/Ball exception applies.
In Education/Instruccion, Inc. v. Moore, that court
held that the exception did apply to Connecticut’s “regional councils of government.” 503 F.2d 1187, 11871189 (2d Cir. 1974). The court explained that, although the one-person, one-vote requirement ordinarily applies to elected governmental bodies, the requirement does not apply to bodies like the councils that “do
not exercise general governmental powers” nor “perform governmental functions.” Id. at 1189. The councils at issue in that case did “not have even the minimal governmental powers insufficient to invoke the
one man, one vote principle” in Salyer because “[t]he
powers and functions of the councils [we]re essentially
to acquire information, to advise, to comment and to
propose.” Ibid. Petitioners do not contend either that
the Second Circuit applied a different legal standard
than the Fifth Circuit or that the Second Circuit’s
holding that the councils were special-purpose districts conflicts with the Fifth Circuit’s holding that the

14
EAA is also a special-purpose district. Thus, there is
no conflict.
The Second Circuit’s decision in Baker v. Regional
High School District No. 5, 520 F.2d 799 (2d Cir. 1975),
also does not conflict with the Fifth Circuit’s decision
in this case. The court in that case considered the electoral scheme of regional school boards in Connecticut,
under which different districts had different voting
strength. Id. at 799-800. Recognizing that “[t]he critical question” was “whether the[] school boards [we]re
elective bodies performing regulatory functions of a
kind that can be characterized as governmental,” id.
at 801, the court examined the nature of the duties and
powers of the boards, id. at 801-802. The court concluded that “the regulatory and supervisory powers
possessed by the regional boards here at issue”—which
included powers amounting to “general manage[ment
of] all of the schools within the[] districts”—were “sufficiently broad to be classified as governmental activity.” Id. at 802. The Second Circuit thus held that the
Salyer/Ball exception did not apply. But petitioners
do not contend that the court applied a different legal
standard than the standard applied below. The fact
that application of a common standard to disparate
facts yields disparate results does not mean there is a
conflict.
2. The Fourth Circuit similarly found that the
Salyer/Ball exception did not apply to the body at issue in Vander Linden v. Hodges, 193 F.3d 268, 277-278
(4th Cir. 1999). And it too applied legal principles
identical to those the Fifth Circuit applied, examining
whether South Carolina’s “county legislative delegations” “exercise governmental functions.” Id. at 275;
see id. at 275-278 & n.5. Explaining that the State had

15
stipulated that the delegations “perform numerous
and various general county governmental functions,”
the Fourth Circuit enumerated many of those functions, including, inter alia, “the power to directly appoint numerous governmental officials, including state
board of education members, transportation committee members, and trustees of public hospitals”; to “approv[e] local school district budgets”; to “alter[] or
divid[e] county school districts”; “to direct the levy of
taxes for the benefit of county hospitals”; “to approve
the issuance of general obligation bonds”; and “to create county and regional housing authorities.” Id. at
276-277 & n.5. The court thus concluded that, “[g]iven
the array of state statutes empowering the delegations
to perform fiscal, regulatory, and appointive functions
and the parties’ stipulation that the delegations do
‘perform’ such functions,” “the legislative delegations
exercise ‘governmental functions’ and so fall within
the scope of the one person, one vote mandate.” Id. at
277-278. That decision does not conflict with the decision below because the scope of the EAA’s duties is
miniscule in comparison.
Petitioners contend (Pet. 25) that the Fourth Circuit rejected an analysis that requires assessing the
extent of governmental functions a body performs in
favor of asking only whether a body performs any governmental functions at all. That claim has no basis in
the Fourth Circuit’s decision. To the contrary, the
court held that it “must consider the powers” actually
“exercised by the delegations,” noting that those powers were “numerous.” 193 F.3d at 276. Nothing in the
opinion suggests that the number or extent of governmental functions exercised by the delegations was

16
irrelevant to determining whether the Salyer/Ball exception applied.
3. Petitioners similarly err in arguing (Pet. 2325) that the Tenth Circuit’s decision in Hellebust v.
Brownback, 42 F.3d 1331 (10th Cir. 1994), conflicts
with the decision below. At issue in Hellebust was the
Kansas State Board of Agriculture, which had twelve
members elected by Kansas agricultural organizations. Id. at 1332. The court held that election of the
board members was subject to one-person, one-vote
“because the Board, a state governmental agency, exercises broad authority affecting arguably all Kansans
and is not limited solely to agriculture or agribusiness
interests.” Ibid. The board enforced “approximately
eighty laws,” had the power to inspect all gas stations,
was entrusted with “[a]ll meat and dairy inspection,”
“regulate[d] the use of pesticides,” and controlled not
only agricultural uses of water but also water rights of
cities, utilities, and individuals. Id at 1332-1333. Because the Board had “broad regulatory powers [that]
affect[ed] all residents of Kansas daily,” the Tenth Circuit held that its electoral scheme must comply with
the mandate of one-person, one-vote. Id. at 1333 (citation omitted); see id. at 1333-1335.
Petitioners cherry-pick a small subsection of the
Kansas state board’s authority and compare it to the
entirety of the EAA’s authority, arguing that the two
entities should be treated the same. See Pet. 24. But
that is not the way the Salyer/Ball analysis works—
and no court of appeals in the country has held otherwise. A court must look at a body’s functions as a
whole to determine whether it is a special-purpose district. That is what the Tenth Circuit did in Hellebust,

17
and that is what the Fifth Circuit did in this case. The
two decisions do not conflict.
B. Petitioners further err in arguing (Pet. 27-29)
that the Fifth Circuit’s application of rational basis review conflicts with this Court’s summary affirmance of
a district court decision.
At issue in Larios v. Cox was the reapportionment
of Georgia’s state legislature and congressional districts. 300 F. Supp. 2d 1320 (N.D. Ga. 2004) (per curiam), aff’d, 542 U.S. 947 (2004). The district court
held (in a decision summarily affirmed by this Court
on direct appeal) that Georgia had violated the principle of one-person, one-vote by intentionally malapportioning its districts to favor incumbents of one party in
regions of Georgia with decreasing population. Id. at
1342, 1345-1347. That holding does not conflict with
the decision below because there was not even a whisper in that case that the voters with disproportionately
greater voting strength in the state legislature were
disproportionately affected by the actions of the state
legislature. The Georgia Legislature is a statewide
body with powers that affect the entire population in
equal measure. That is not true of the EAA, as the
lower courts found.2

2

Petitioners also suggest (Pet. 27) that the decision below
conflicts with the Fourth Circuit’s decision in Raleigh Wake Citizens Ass’n v. Wake County Board of Elections, 827 F.3d 333 (4th
Cir. 2016), which petitioners contend held that North Carolina’s
reapportionment of school boards and boards of county commissioners violated one-person, one-vote because they were apportioned in order to reflect regional favoritism. The Fourth Circuit
expressly declined to decide that question, id. at 351, and there is
no suggestion in that case that the elected bodies had a disproportionate effect on a subset of voters.

18
C. Notably, petitioners do not argue (Pet. 21-22)
that the decision below conflicts with the Seventh Circuit’s decision in Pittman v. Chicago Board of Education, which held that Chicago’s local school councils
were special-purpose districts subject to the
Salyer/Ball exception. 64 F.3d 1098, 1101-1103 (7th
Cir. 1995). The court explained that the councils had
no “power to tax” either directly or indirectly “through
the sale of bonds or [by] increas[ing] the total spending
on the schools”; that different elected bodies served as
the governing bodies of Chicago public schools; and
that the councils did not control public education in the
schools. Id. at 1103. Significantly, all residents were
allowed to vote in elections for members of the councils. Id. at 1100. But the open-franchise nature of that
election did not stop the Seventh Circuit from applying
the Salyer/Ball exception any more than it stopped
the Fifth Circuit from doing so in this case. Petitioners
argue (Pet. 21) that Pittman “is distinguishable” because the nature of the weighted electoral scheme in
that case was different from the scheme in this case.
But that is an irrelevant distinction when determining
whether the Salyer/Ball exception applies. As the
Seventh Circuit noted, whether the nature of the electoral scheme passes constitutional muster is a distinct
question from whether rational basis review or the
strict one-person, one-vote standard applies. See 64
F.3d at 1103.
Because all courts of appeals agree on the legal
standard for determining whether the Salyer/Ball exception applies—and because all courts of appeals
have applied that standard in the same way to the different types of governmental bodies at issue in

19
different cases—no conflict exists. Further review is
therefore unwarranted.
II. The Decision Below Does Not Warrant
Review.
Review of the Fifth Circuit’s fact-bound decision is
unwarranted not only because it does not conflict with
any decision of another court of appeals, but also because the question petitioners would have this Court
address does not arise with any frequency and was correctly decided below.
A. Petitioners concede (Pet. 32) that no other
court has addressed the application of the Salyer/Ball
exception to a governmental district that is exactly like
the EAA.3 And the absence of any amicus briefs in
support of the petition underscores the infrequency
with which this particular set of facts arises. What petitioners seek is this Court’s review of a fact-bound issue that has never before arisen and may never arise
again. This Court ordinarily does not intervene to review the lower courts’ application of settled legal principles to the facts of a particular case. Sup. Ct. R. 10
(“A petition for a writ of certiorari is rarely granted
when the asserted error consists of . . . the misapplication of a properly stated rule of law.”). There is no reason to deviate from that settled practice in this case.
B. In any event, the decision below was correctly
decided.
1. The Fifth Circuit’s decision is based on a
straightforward application of the principles set out in
3

As explained at pp. 17-18, supra, the Seventh Circuit applied the exception to a special-purpose district with an open franchise in Pittman.

20
Salyer and in Ball. Indeed, all three cases involved
special-purpose districts created to address vital water-related needs. Salyer, 410 U.S. at 728-729; Ball,
451 U.S. at 357-359; Pet. App. 2a-7a. This Court has
explained the importance of allowing States in the
“western third of the Nation” to create water-management units of government to address “[t]he peculiar
problems of adequate water supplies” in that region.
Salyer, 410 U.S. at 721. Without such special-purpose
districts, the Court explained, water-related “projects
[that] would benefit a more restricted geographic area”
would be impossible to implement. Id. at 722. The
EAA, like the districts at issue in Salyer and Ball, is
exactly the type of body that is necessary “to provide a
local response to water problems.” Ibid.
The EAA has the same purpose, engages in substantially same activities, and is subject to the same
limitations as the districts at issue in Salyer and Ball.
Like those districts, the EAA does not provide “general
public services such as schools, housing, transportation, utilities, roads, or anything else of the type ordinarily financed by a municipal body.” Salyer, 410 U.S.
at 728-729; see Ball, 451 U.S. at 366 (noting that the
district did not “administer such normal functions of
government as the maintenance of streets, the operation of schools, or sanitation, health, or welfare services”); Pet. App. 54a (explaining that the EAA does
not “provide general public services such as the operation of schools, housing, transportation, public utilities, road building and maintenance, public sanitation,
health, welfare services or anything else of the type ordinarily financed by a municipal body). Like the districts in Salyer and Ball, the EAA’s authority is narrowly focused on preserving and managing the water

21
supply of a specific geographic area. And, like the district at issue in Ball, the EAA cannot “impose ad valorem property taxes or sales taxes.” 451 U.S. at 366;
Pet. App. 6a, 54a. In some ways, the EAA’s powers are
materially more limited than those of the Salt River
District at issue in Ball, which was “one of the largest
suppliers” of electric power in Arizona. 451 U.S. at
365. Finally, as in Salyer and Ball, the EAA’s activities disproportionately affect the voters with greater
voting strength. Salyer, 410 U.S. at 728; Ball, 451 U.S.
at 370; Pet. App. 22a-24a, 59a-60a. The Fifth Circuit
thus correctly decided that the EAA is precisely the
type of special-purpose district that falls within the
Salyer/Ball exception.
2. Petitioners contend (Pet. 14-20) that the Fifth
Circuit’s decision conflicts with decisions of this Court
that purportedly suggest that the Salyer/Ball exception cannot apply to a body “that grants the right to
vote to all eligible voters,” regardless of the nature of
the body and its statutory functions. That is wrong.
The decisions in Salyer and Ball make clear that it is
the nature of the elected body, not the nature of the
body’s electoral scheme that determines whether it
falls within the Salyer/Ball exception. Salyer, 410
U.S. at 728; Ball, 451 U.S. at 371; see Associated Enters., Inc. v. Toltec Watershed Improvement Dist., 410
U.S. 743, 744 (1973) (per curiam). If an examination
of the structure, function, and authority of the body reveals that it is a special-purpose district rather than a
general governing body, it is subject to the Salyer/Ball
exception; otherwise, it must comply with one-person,
one-vote. Only after determining whether a body falls
within the Salyer/Ball exception does the nature of its
electoral scheme become relevant. At that point, the

22
scheme is reviewed under rational basis if the jurisdiction is a special-purpose district or under the one-person, one-vote standard if it is a general governing body.
The decisions petitioners rely on (Pet. 15-20) did
not involve special-purpose districts. Rather, they involved general governing bodies such as Georgia’s
state legislature, a county commission, a junior college
district’s board of trustees, and the New York City
Board of Estimate. Gray v. Sanders, 372 U.S. 368,
370-371 (1963); Avery v. Midland County, 390 U.S.
474, 475-476 (1968); Hadley v. Junior Coll. Dist. of
Metro. Kan. City, 397 U.S. 50, 51-52 (1970); Bd. of Estimate of N.Y.C. v. Morris, 489 U.S. 688, 690 (1989). In
each case, the Court determined that the one-person,
one-vote requirement applied based on the nature of
the body at issue, not because the body did or did not
have an open franchise.
Petitioners’ emphasis (Pet. 18-19) on Morris is
misplaced. Petitioners suggest that the Court applied
the one-person, one-vote requirement in that case because “all eight officials on the board ultimately are
selected by popular vote.” Pet. 19 (quoting Morris, 489
U.S. at 691 (characterizing court of appeals decision)).
Not so. The Court in Morris held that one-person, onevote applied to the Board of Estimate because the
Board exercised “a significant range of functions common to municipal governments” and “share[d] legislative functions with the city council with respect to
modifying and approving the city’s capital and expense
budgets.” 489 U.S. at 694-696 & n.4. In other words,
the Court held that the Board was not a special-purpose district.
At bottom, petitioners merely argue that this
Court has not yet applied the Salyer/Ball exception to

23
a special-purpose district that has an open franchise.
But that does not mean that it would not do so. As
discussed, courts of appeals have now done so without
trouble. It would make little sense, moreover, to adopt
petitioners’ preferred rule. Petitioners do not contest
that if the EAA is properly viewed as a special-purpose
district, it could restrict the franchise to permit holders or landowners. But they fail to explain why the
Equal Protection Clause would frown on a special-purpose district that is more inclusive than constitutionally required by opening the franchise to everyone.
The court of appeals correctly held that the EAA’s electoral scheme—which gives greater weight to the votes
of people who are more directly affected by the EAA’s
actions—easily survives rational basis review.
3. Finally, there is no merit to petitioners’ argument (Pet. 26, 29-31) that the Fifth Circuit’s decision
conflicts with Texas state law’s view of what qualifies
as a “governmental activity.”
First, nothing in Salyer, Ball, or any decision from
any court of appeals applying those cases suggests that
the proper scope of general governmental activity (as
contrasted with the limited scope of special-purposedistrict activity) is a question of state law that should
vary among jurisdictions. In this context, whether an
activity is a traditional governmental activity is relevant only to determining what standard of review applies under the Equal Protection Clause of the United
States Constitution. That question is therefore one of
federal law. The Equal Protection Clause does not apply in different ways in different States—and a State
is not permitted to alter application of the Clause to its
governmental bodies by defining terms like “governmental activity.”

24
Second, even the two cases petitioners rely on do
not support their view. Those cases merely describe
activities performed by governmental entities as “governmental functions,” City of White Settlement v. Super Wash, Inc., 198 S.W.3d 770, 776 (Tex. 2006), or rely
on a state statute that does the same for purposes of
defining the scope of government tort liability, Tex.
Bay Cherry Hill, L.P. v. City of Fort Worth, 257 S.W.3d
379, 388 & n.4 (Tex. App. 2008). There is no question
that the EAA’s activities can be described in lay terms
as governmental functions. But that was equally true
of the districts at issue in Salyer and Ball. The constitutional rule announced in those cases requires a court
to look beyond that superficial concept of governmental activities. The question is not whether a district
performs “governmental functions” full stop; the question is whether those functions are “the sort of governmental powers that invoke the strict demands of Reynolds.” Ball, 451 U.S. at 366. The Fifth Circuit correctly determined that the EAA’s functions are not,
and review of that fact-bound decision is unwarranted.
CONCLUSION
For the foregoing reasons, the petition for a writ
of certiorari should be denied.

25
Respectfully submitted,
William M. McKamie
Taylor Olson Adkins
SRALLA & ELAM LLP
13750 San Pedro Ave.
Suite 555
San Antonio, TX 78232
Attorney for Respondents
City of Uvalde and
Uvalde County
Aaron M. Streett
BAKER BOTTS, LLP
One Shell Plaza
910 Louisiana St.
Houston, TX 77002
Attorney for Respondent
Guadalupe-Blanco River
Authority

Deborah C. Trejo
Counsel of Record
Mark N. Osborn
Ken Slavin
KEMP SMITH LLP
919 Congress Ave.
Suite 1305
Austin, TX 78701
(512) 320-5466
dtrejo@kempsmith.com
Attorney for Respondents
Mark J. Cannan
CAVARETTA, KATONA &
LEIGHNER, PLLC
One Riverwalk Place
700 N. St. Mary’s St.
Suite 1500
San Antonio, TX 78205
Attorney for Respondent
New Braunfels Utilities

March 23, 2020

